      AG E N C Y     FOR

I N T E R N A T IO N A L 

DEVELOPMENT





                                                                                               April 15, 1999



                    MEMORANDUM FOR AA/M, Terrence J. Brown
                                          Vivian Lower-y
                                          Donald L. Pressley
                                          Robert C. Randolph
                                          Mark L. Schneider

                    FROM:         A-AIG/A,

                    SUBJECT:      Audit of                        greements under Section 632(b) of the
                                  Foreign Assistance Act (Audit Report No. 9-000-99-007-P)

                    This is our final report on the subject audit. We received and appreciate your comments
                    on our draft audit report and have included them in their entirety as Appendix II.

                 This report contains six recommendations for your action. Your comments to the draft
                 report included comprehensive plans for addressing some of these recommendations. We
                 concur with some of your plans and believe that, once implemented, these new policies,
                 procedures and guidelines               the weaknesses noted. during our audit. They
                 clearly demonstrate management’s determination to properly manage
                 Interagency Agreements under Section 632(b) of the Foreign Assistance Act.
                Accordingly, we concur that management decisions have been reached on
                 Recommendation Nos. 2, 3, 4.2, 5, and 6.

                   In response to Recommendation No. 1, the Bureau for Management stated that it had
                   included the ability to record information on the types of interagency agreements into the
                   financial management requirements. However, your response did not address plans to
                   ensure that the system included the capabilities noted in Recommendation Nos.          1.2,
                   and 1.3. We believe that through the full implementation of this recommendation,
                           managers and technical officers will be better able to perform their programmatic
                   and accountability responsibilities.

                   With regard to Recommendation No. 4, we         that a management decision has been
                   reached on Recommendation No. 4.2 (Bureau for Asia and the Near East). The Bureau
                   for Africa did not provide a response for Recommendation No. 4.1. The other bureaus
agreed to identify interagency agreements funds to be deobligated. However, the specific
amount recommended for deobligation in Recommendation 4.3 (Bureau for Europe and
the New Independent States), 4.4 (Bureau for Latin America and Caribbean), and 4.5
(Bureau for Management) was not identified by the respective bureau. To be fully
responsive, each bureau must specify the amount of funds to be deobligated.

In summary, we are withholding concurrence with your management decisions on
Recommendation Nos.               and 4.5, pending receipt of specific comments for these
recommendations. We are also withholding concurrence for Recommendation No. 4.1
pending receipt of the Bureau for Africa’s comments. Since a management decision has
not been reached on these recommendations, we would appreciate a response within 30
days of the issuance of this report (May 14, 1999).

I appreciate the cooperation and assistance extended to our staff during the audit.


Background
A Senate Conference Report, which discussed bills introducing the Foreign Assistance Act
of 1961 (FAA), declared that            would combine in one agency the major existing
agencies and programs of foreign assistance and integrate in one operation the major tools
of assistance-capital financing, development research and assistance, and food and other
commodity supply. The report explained that          would, however, in its planning and
programming, seek the advice of domestic departments and agencies that have
competence in fields related to development, and use their services and experts and
technicians on a reimbursable basis. Conferees hoped this combined and integrated
approach to international development would bring the several aspects of assistance into
focus at the points they would be needed and could be used best and would avoid the
confusion and inefficiency of multiple planning, representation, and operations. These
arrangements were to be based on agreements and contracts entered into by              and
the appropriate Federal agency.

Section 632(b) of the Foreign Assistance Act of 1961, as amended, states:

       “Allocation and Reimbursement Among Agencies. Any officer of the
       United States Government carrying out functions under this Act may
       utilize the services (including defense services) and facilities of, or procure
       commodities, defense articles, or military education and training from, any
       agency of the United States Government as the President shall direct, or
       with the consent of the head of such agency, and funds allocated pursuant
       to this subsection to any such agency may be established in separate
       appropriation accounts on the books of the Treasury.”

       executes three types of Section 632(b) interagency agreements:
               Participating Agency Service Agreement             This type of agreement
               is normally used for activity-specific services to be performed within a
               definite time frame. Work may be funded by Washington or overseas
               offices and may be performed inside or outside the United States.
                          Bureau for Management/Office of Procurement              issues
               and closes these interagency agreements.

               Resources          Services Agreement (RSSA) This type of agreement
               is normally used to obtain general professional support assistance on a
               continuing basis from another Federal agency. Work is normally funded
               only by                      bureaus and offices and performed only in
                                             have no specific, readily measurable goals
               to be accomplished within set time periods.        issues and closes these
               interagency agreements.

       (3)     Non-PASA/RSSA agreement                 uses these interagency agreements
               to obtain technical assistance or inherently governmental services which
               may not be performed in            office space.           geographic and
               central bureaus and offices issue and close these interagency agreements.

Although Section 632(b) gave agencies the authority to obtain services from one another,
it did not specify which agency would be responsible for oversight of activities covered
by agreements executed under this authority. Our review of foreign assistance legislation
and discussions with agency officials did not disclose any legislation addressing this issue.
Guidance and/or circulars issued by the U.S. General Accounting Office (GAO), the
Office of Management and Budget, and U.S. Department of Treasury have been equally
silent. However, various               officials have taken the position that              is
responsible for monitoring funds transferred to other Federal agencies under Section
632(b).

We focused our review on                     in&agency agreements        issued under
Section 632(b). At our request,                          bureaus and some overseas
accounting centers provided data on all                       which were still open as
of June 30, 1998. According to data provided to us,          had 95 such agreements,
with obligations totalling $170 million as of September 30, 1998. (See Appendix III.)

        Objective
The Office of Inspector General (OIG) performed the audit to answer the following
question:

Did          monitor funds transferred to other Federal agencies under Section
632(b) of the Foreign Assistance Act of 1961 (FAA), as amended, in accordance with
U.S. laws and              and         policies and procedures?

                                             3

See Appendix I for a detailed discussion of the scope and methodology for this audit.



Did          monitor funds transferred to other Federal agencies under Section
632(b) of the Foreign Assistance Act of 1961 (FAA), as amended, in accordance with
U.S. laws and regulations and          policies and procedures?

        did not adequately monitor funds transferred to other Federal agencies under
Section 632(b) of the FAA in accordance with U.S. laws and regulations and
policies and procedures mainly because of deficiencies in                 internal control
systems for Section 632(b)             Specifically, (1)          financial management
system could not provide reliable reports on Section 632(b)       which          managers
and technical officers need to use for their programmatic and accountability functions and
(2) the filing system for the                            of some operating units was not
adequate, resulting in agreements and their supporting documents being lost or misplaced.
In addition, we found delays in closing Section 632(b)              noncompliance with
           requirement for a justification and determination document for certain
               Section 632(b)          and the need for guidance on the use of Section
632(a) and 632(b) interagency agreements. We believe these problems could be mitigated
by adopting certain internal control techniques.

        Financial Management System

      Not Provide Reports on Section 632(b)

      Which Are Reliable and Useful to

                 and 
         Officers

It is the policy of the U.S. Government that its financial management systems should
provide complete, reliable, consistent, timely, and useful financial management
information on government operations that enable agencies to (1) carry out their fiduciary
responsibilities, (2) deter fraud, waste, and abuse of Federal government resources, and
(3) facilitate efficient and effective delivery of program services by relating financial
consequences to program performance. The structure of a financial management system
should be designed to ensure, among others, that consistent information is collected for
similar transactions throughout the agency. Common data elements should be used to
meet reporting requirements and, to the extent possible, should be used throughout the
agency for collection, storage, and retrieval of financial information. We found, however,
that because of design flaws,               New Management System (NMS) could not
provide accurate reports on past and present Section 632(b)          which        managers
and technical officers can use for their programmatic and accountability functions.
a result, some bureaus started to develop their own databases in order to have information
which they need and can rely on.
The geographical and central bureaus and offices need reports listing
      because they, rather than         are responsible for closing them when completed.
In our opinion, technical officers should be able to obtain these reports from NMS.
However, we found that NMS could not produce reports which properly sorted Section
632(b)        by type or distinguished between open and closed agreements. In particular,
many                            were listed as        and some were not included in the
reports at all. This problem was compounded by the fact that the completion dates for
many                            had not been updated, so it was not possible to readily
           which        had actually expired and should be closed.

NMS could not produce accurate and useful IAA reports because its design did not
provide:

       codes for categorizing all three types of Section 632(b)    (PASA, RSSA, and
       non-PASA/RSSA). Designers provided codes only for              and RSSAs in
       NMS’ Acquisition and Assistance (A&A) module. Upon discovery of this
       omission, bureaus were instructed to use the PASA code for all

�
       an identification code for closed Section 632(b)          and

       a means for users to update                     Section 632(b) IAA data migrated
       from the previous accounting system.

Because they needed reports unavailable through NMS, some bureaus and offices created
their own databases to supplement NMS information. These                databases, however,
do not meet Federal standards because they are often not reliable. For example, after our
exit conference, officials from the Bureau for Europe and the New Independent States
       learned that the lists of non-PASA/RSSA Section 632(b) agreements, which their
technical officers submitted for the audit test, did not include’105 obligation transactions
under such agreements that met the parameters of our request.

       has identified the lack of an effective, integrated financial management system
as a material weakness under the Federal Managers’ Financial Integrity Act and has
committed to take a series of corrective actions to implement a new, integrated financial
management system. In connection with these actions, we recommend the following:

       Recommendation No. 1: We recommend that the Bureau for Management,
       in developing plans to implement an effective financial management system,
       ensure that the system includes a capability to:

       1.1	    produce reports which identify and sort Section 632(b) interagency
               agreements by recipient agency, and by type of agreement
               RSSAs, and

                                             5
        1.2    identify closed Section 632(b) interagency agreements; and

        1.3           the updating of      interagency agreements.


Bureaus Need Adequate Filing Systems
for               Interagency Agreements

GAO’s internal control standards require that documentation be both available and easily
accessible for examination. Although            has a records management policy, several
bureaus did not have adequate filing systems for                      Section 632(b)
Due to inadequate filing systems, in 21 out of 63 instances, technical officers and/or
bureau officials could not readily locate copies of       and associated documents, such
as progress reports. Technical officers suggested that documents were misplaced (1) when
         moved to the Ronald Reagan building, (2) because their predecessors had not
filed properly or informed others of the location of key files, and/or (3) because they had
insufficient time to file properly. Lack of key documents may have been one reason why
some technical officers were unfamiliar with some provisions and requirements of their


Technical officers in the Bureaus for Humanitarian Response, Asia and the Near East,
Europe and the New Independent States, Global, and Management ‘were not always able
to provide copies of                            amendments to the          and key
supporting documents in a reasonable period of time. When asked for copies of these
documents, technical officers either had to ask previous technical        where the
documents might be filed or request recipient agencies or the Bureau for
Management/Office of Financial Management to provide copies from their files.

         has a policy that official records must be preserved as appropriate because of the
informational value of data they contain or as evidence of the organization, functions,
policies, decisions, procedures, operations, or other activities of          It is prescribed
that each                       office and overseas mission designate official files stations
where official records shall be maintained. Official files stations must be established at
locations convenient to file users.             *maintenance and controls over the use of
official records must be provided. Official records maintained at the designated files
stations must be identified and appropriate procedures established within offices to ensure
that records are filed at their designated stations.

Technical and program officers of various bureaus told us that good filing systems are
both lacking and needed in their respective bureaus. We likewise believe that a reliable
filing system is essential to any organization, but particularly for           because the
institutional memory at specific offices is adversely-affected by very high staff mobility.
Hence, we recommend the following:
          Recommendation No. 2: We recommend that the Bureau for Management
          instruct all bureaus to establish filing systems that would allow all users to
          obtain copies of interagency agreements and related documents in a timely
          manner.


 Closure of Section 632(b) Interagency
 Agreements Has Not Been Timely

         has a significant number of Section 632(b)        which have expired completion
 dates. These          are potential candidates for              administrative close-out
 procedures’ which could result in the deobligation of residual funds. Delayed closure of
 expired       is inconsistent with the GAO internal control standard which requires that
 transactions be promptly recorded if pertinent information is to maintainits relevance and
 value to management in controlling operations and making decisions. As a result of
 delays in closing completed Section 632(b)         a         amount of residual funds has
 remained idle for many years.

 Our audit disclosed a total of 198 open Section 632(b)        with completion dates on
 or before December 1997. More than half of this total were                            of
 which 86 had completion dates falling between September 1988 and September 1996.
 We attribute the untimely closure of these Section 632(b)          to a lack of written
 policies and procedures for closing such agreements, the lack of monitoring systems to
 identify completed agreements, and the untimely submission of            billings by the
 relevant recipient agencies. These causes are discussed below:
 �
          Although technical officers in the awarding bureau or office are responsible for
          closing                            14 of the 30 technical officers that we
          interviewed did not know that they were responsible for closing
                when completed.

          Technical officers become aware of their responsibilities through written or oral
          instructions and through         guidance. However, technical officers were not
          instructed verbally or in writing about their responsibilities for closing
                               Also,           only guidance for Section 632(b)
          Chapter 306 of the Automated Directives System (ADS)--did not contain guidance
          regarding agreement closures. In addition, with the exception of the       Bureau,
          bureaus did not have systems to monitor all                            awarded by
          the bureau and remind the responsible technical officers of the need to close them
          when all the activities under                         had been completed. Thus,
          most bureaus did not notice that the closure of these        was being neglected.


                    close-out procedures include steps such as receiving and paying         invoices, obtaining
unspent advances due       the other federal agency, and authorizing deobligation of residual funds.

                                                     7

              has an office that is responsible for ensuring the closure of completed
               and RSSAs. Delays in closing these agreements were caused principally
       by the recipient agencies. According to the contractor hired by        to take care
       of closing all completed acquisition instruments,         and RSSAs are the most
       difficult to close because of the problem of obtaining the final billing from the
       recipient agencies. He reported that some agencies would not respond to
                  follow-up letters.

As a result of the untimely closure of the 198 completed Section 632(b) IAA discussed
above, approximately $34 million in residual funds have remained idle for many years.
These funds have potential for deobligation and reprogramming for other needs. In fact,
between June 30 and November 17, 1998, Bureau for Management officials told us that
they deobligated more than $2.7 million of these funds.

In our opinion,           needs to increase its efforts to address the timely closure of
Section 632(b)         We believe that the bureaus should identify all completed Section
632(b)        and more aggressively persuade the relevant recipient agencies to submit the
final billings needed to close the        Also,         should develop Section 632(b) IAA
closure procedures which include (1) a system to monitor closure action and (2) steps to
obtain final Section 632(b)       billings from recipient agencies. Towards the end of this
audit, we learned that the Office of General Counsel (GC) and           are modifying the
ADS for interagency agreements. In connection with this action, we are making the
following recommendations:

       Recommendation No. 3: We recommend that the Bureau for Management
       ensure that the Automated Directives System (ADS) includes
       procedures for closing all categories of completed Section 632(b) interagency
       agreements.

       Recommendation No. 4: We recommend that the. Bureaus for Africa, Asia
       and the Near East, Europe and New Independent States, Latin America and
       the Caribbean, and Management identify all completed interagency
       agreements, obtain any additional information needed from recipient agencies
       to expedite the close-out process for all completed Section 632(b) interagency
       agreements and deobligate any funds that are no longer needed--including the
       following amounts identified during the audit (198 interagency agreements
       with unliquidated obligations of approximately $34 million listed in
       Appendices IV and V):

       4.1	    the Bureau for Africa should review Section 632(b) agreements
               with unliquidated obligations totalling $58,143;

       4.2	    the Bureau for Asia and Near East should review Section 632(b)
               agreements with unliquidated obligations totalling $992,751;
             4.3	    the Bureau for Europe and the       Independent States should
                     review Section 632(b) agreements with unliquidated obligations
                             $24441,128;

             4.4     the Bureau for Latin America and the Caribbean should review
                     Section 632(b) agreements with unliquidated obligations
                             $63,632 (including $27,144 for            Salvador);
                     and

             4.5	    the Bureau for Management should review Section 632(b)
                     agreements with unliquidated obligations totailing


    In our opinion, procedures for closing completed Section 632(b)        would include a
    discussion of the respective roles and responsibilities of all     officials involved in
    the closure process, require that bureaus develop systems to monitor closure action on
    completed           and include guidance to help technical officers and other closure
    officials obtain final      billings from recipient agencies.


    Guidance Needed to Ensure that
    Justification and Determination Documents
    Are                  Required

    Technical offices are required to prepare, and obtain approval and clearance for,
    Justification and Determination ‘documents (justifications) before executing non­
                  Section 632(b)        requesting technical assistance from other Federal
                Although justifications    required when          requests other agencies to
    provide technical assistance, they are not required when           asks other agencies to
    perform inherently governmental functions. Justifications establish that        could not
    have acquired the same goods and/or services as conveniently and cheaply by a contract
    with a private enterprise.

            requires that justifications be approved by the applicable bureau’s Assistant
    Administrator or Deputy Assistant Administrator and cleared by the Assistant General
    Counsel. During our audit, we reviewed 58                           Section 632(b)
    managed by                         to determine whether justifications had been prepared
    when required. None of the 58            reviewed clearly indicated whether          was
    requesting technical assistance or an inherently governmental function, which is not
    always a self-evident distinction. We asked the GC to review the purposes of these
    and advise us which ones appeared to request technical assistance. Based on this


               justification requirement is asserted in ADS         and in a policy memo issued on October
31, 1996, entitled. “Revised Delegation Authority for       under FAA Section 632(b) and Use Standards.”
assessment, it appeared that justifications had not been prepared for 15 of these
requesting technical assistance.

Based on our discussions with technical officers and GC officials, we believe that the
failure to comply with the requirement for a justification was caused by a combination
of lack of knowledge or misunderstanding of the requirement. We interviewed 30
technical officers and 15 were unaware of the requirement before the audit. We were also
told that some GC officers had perhaps failed to realize the need for the requirement. We
learned that, initially, the                Section 632(b) type of IAA was intended only
to request other Federal agencies to carry out clearly a governmental function. These
       therefore, did not need a justification. Additionally, it was also intended that
         would only use          or          to request technical assistance from other
agencies. We were informed that confusion started when                decided to use
              Section 632(b)      to acquire technical assistance.

As mentioned earlier, GC and           are in the process of modifying ADS Chapter 306
which covers interagency agreements. Staff involved in this process said the revised
chapter will clarify the requirements for preparing justifications for
      and include examples of inherently governmental functions in the revised chapter
to help technical offices determine when justifications are necessary. However, the
expected issuance date for the revised chapter is uncertain. Because technical officers
need guidance on this issue in the interim, we are making the following recommendation.

       Recommendation No. 5: We recommend that the Bureau for Management
       issue a written reminder to officials responsible for executing Section 632(b)
       non-PASA/RSSA interagency agreements of the                requirement that a
       Justification and Determination document be prepared when technical
       assistance is obtained from other Federal Agencies.


Guidance ������N on the Use of Section
632(a) and      Interagency

Poor relationships with recipient agencies are leading        managers to consider using
Section 632(a) agreements instead of Section 632(b)                        agreements.
However, senior officials have noted the lack of and need for USAID-wide guidance to
help them and their staff appropriately decide between Section 632(a) and Section 632(b)


Under Section 632(a)                  transfers all programmatic and accountability
functions to the recipient agency.        does not request or receive financial and/or
program information under such agreements. In contrast, the terms of Section 632(b)
                   agreements require recipient agencies to provide               with
performance and/or           information on a regular basis.

                                          ��
However, not all recipient agencies have fulfiied their Section 632(b) responsibilities,
thereby hampering            abilities to manage its projects and close out completed
agreements effectively. In one case, for example,           officials felt that, because a
recipient agency neglected to coordinate and report its activities and progress with
          Washington and overseas:teams, they were hindered in their efforts to ensure
that         assistance would contribute to the sustainable development of the countries
involved.

In our opinion, these types of coordination problems are causing          management to
reassess the merits of using Section 632(b) non-PASA/RSSA agreements and to consider
using Section 632(a) agreements instead. The            Bureau, in particular, has been
awarding more         under the provisions of Section 632(a)      to avoid the significant
financial and performance reporting problems it encountered with recipient agencies under
Section 632(b) non-PASA/RSSA agreements. By executing more Section 632(a)
      was able to resolve a material internal control weakness on the financial and
implementation reporting under interagency agreements. This was reported by
in its Federal Managers’ Financial Integrity Act Reports from fiscal year 1993 through
fiscal year 1997.

Increased interest in and use of Section 632(a)         has raised concern that           has
not issued guidance to help bureaus’decide between Section 632(a) and Section 632(b)
       Senior officials from several bureaus stated they needed                    guidance
to clarify           position on the use of Section 632(a)        and to provide procedures
for their execution. Some officials said they were uncomfortable executing Section 632(a)
       without such guidance. In addition, we believe that the lack of written guidance
has resulted in technical officers being unaware of the relative merits of each type Section
632 agreement or of the differing responsibilities assumed by               for choosing
agreement over the other.

To address this weakness, we recommend the following:

       Recommendation No. 6: We recommend that the Bureau for Management
       issue guidance and procedures to help                 appropriately choose
       between Section 632(a) and Section 632(b) interagency agreements.

The Bureau for Management may issue this guidance in any of several different formats.
However, the most effective method may be to include it in ADS Chapter 306, which is
currently being rewritten by      and

Management Comments and Our
In responding to our draft audit report,        generally agreed with the report’s
recommendations. Accordingly, we concur that management decisions have been reached
on Recommendation Nos. 2, 3, 4.2, 5, and 6.

                                            11

The Bureau for Management only partially addressed Recommendation No. 1. They
stated that it had included the feature of recording the types of interagency agreements
into its financial management requirements. However, they did not provide comments
on the systems requirements of the specific parts (Recommendation Nos. 1.1, 1.2, and
1.3) of the recommendation. Therefore, we must withhold our concurrence with this
recommendation.

For Recommendation No. 4, we concur that a management decision has been reached on
Recommendation No. 4.2 (Bureau for Asia and the Near East) because the interagency
agreement identified was amended to extend the completion date from September 30,
1997 to August 30, 1999. The unliquidated amount of $992,751 identified under this
agreement will be expended over the life of the agreement. In our opinion, this
management comment clearly demonstrates the need to have an effective financial
management system that includes the capability of updating completion dates for all
interagency agreements.

With regards to the other parts of Recommendation No. 4, the Bureau for Africa did not
respond to Recommendation No. 4.1. On the other hand, the other bureaus agreed to
identify the interagency agreements funds to be deobligated. However,          did not
respond to the specific amount recommended for deobligation in Recommendation Nos.
4.3 (Bureau for Europe and the New Independent States), 4.4 (Bureau for Latin America
and Caribbean), and 4.5 (Bureau for Management). To be fully responsive, each bureau
must specify the amount of funds to be deobligated. As a result, we must withhold our
concurrence on a managment decision for Recommendation Nos. 4.1, 4.3, 4.4, and 4.5.
                                                                           APPENDIX I
                                                                             Page 1 of 2




                              GTDE�Y H��
                             A� PD�DSDON



Scope
This audit of           interagency agreements          under Section 632(b) of the
Foreign Assistance Act (FAA) was conducted by the Office of Inspector General’s (OIG)
Performance Audits Division                      audit followed generally accepted
government auditing standards.

In designing our audit tests and procedures as well as in determining whether a matter
requires disclosure in our audit report, we considered the materiality and/or significance
threshold level for this audit to be a five percent rate of non-compliance or
achievement. We established this rate principally because previous OIG and U.S. General
Accounting Office (GAO) audits found several issues of concern in                   use of
      Also,            Federal Managers’ Financial Integrity Act reports for FY 1993 to
FY 1997 identified .a material weakness in the financial and implementation reporting
under interagency agreements. This threshold level was agreed to by senior management
of           Bureau for Management.

The audit was conducted from April 1998 through November 1998 at            offices in
Washington, D.C. Certain missions were included in the audit by use of the telephone
and electronic mail system.

Because        did not       an integrated and automated database or other single source
which could provide a reliable list of all        obligations for all types of Section 632
      we found it necessary to compile our own list. Accordingly, we requested
        bureaus, offices, and certain missions to provide us such lists for Section 632(b)
      For Section 632(a)           we developed a list from the manual records of the
Bureau for Management/Office of Financial Management (M/FM).

The audit determined          roles and responsibilities under all types of       executed
under Section 632 of the FAA of 1961, as amended. From the Section 632(a) IAA listing
developed from M/FM records, we reviewed all agreements executed between October
1, 1997 through June 30, 1998 in order to confirm            responsibilities for and uses
of these       After establishing that          had oversight responsibilities only on
                                                                               APPENDIX I
                                                                                 Page 2 of 2



Section 632(b)        the audit test was limited to program- and operating expense-funded
                  Section 632(b)          Although          and RSSAs were classified as
Section 632(b)         we did not include them in the detailed testing.        and RSSAs
were included in the audit only for determining the causes and effects of the long delays
in processing their closure.

From the list of                      Section 632(b)          that we developed using the
information provided us by each bureau and mission, we judgmentally selected the
for detailed audit testing. At least one of these          was tested from each sub-unit of
each operating unit (bureau, office or mission) that had open                             as
of June 30, 1998. We tested 63 out of the 95                                  which were
reported to us at the start of the audit as still open on June           Our verification of
the implementation of the agreements by the recipient agencies was limited to the review
of the recipient agencies’ progress reports and audits conducted by their Inspectors
General.

Methodology
We reviewed applicable laws and regulations and guidance from the Office of
Management and Budget (OMB), U.S. Department of Treasury, GAO, and                         We
also interviewed              of the Department of State,. GAO, OMB, Department of
Treasury, and some recipient Federal agencies. When determining whether                   had
fulfilled its oversight responsibilities, we interviewed relevant technical officers-in-charge
and other officials and staff in the Offices of Budget, Procurement, and Financial
Management of the Bureau for Management and in the bureaus and offices which had
executed          We also reviewed relevant agreements and required reports. We likewise
reviewed OIG and GAO audit reports issued over the last four years to determine whether
previous problems had been resolved. When application of relevant policies was
questioned and when                the usefulness of the establishment of applicable policies
and systems for interagency agreements, we interviewed policy officers from the Office
of General Counsel, the Office of Administrative Services of the Bureau for Management,
the Office of the Assistant Administrator of the Bureau for Management, and bureaus
which had executed a significant number of these agreements.

We did not project the results of our test because the universe could not be verified under
         New Management System.
                                                                                                    APPENDIX II

                                                                                                      Page 1 of 7
                                 tT�Tdltl�q




                                                                March 17, 1999




TO:                              Paul E. Armstrong

FROM:                                    J.

                       Audit of         3          Agreements under Section 632(b) of the
                       Foreign Assistance Act, Audit Report No.



        Thank you for the opponunity to respond to the          draft report. We         agree
      the                 and     developed appropriate                action plans. Our
            decisions are conveyed below.

                           We             that the Bureau for                 in developing plans
to implement              financial management         ensure         the       3 7F1DM2nA3
capability to:

1.1     produce reports which         and sort Section 632(b)                agreements by
        recipient agency, and by type                                  and

1.2              closed Section 632(b)                          and

1.3     allow the updating of    interagency agreements.



   ability to record information regarding                      agreement         into the
        management system is one                           Management improvement
        Core                     requirements. Accordingly, systems on the Financial
Management Support Systems               Schedule will include this        as part of their
                      addition, this was included as a            item in our financial
management requirements document                             Recommendations 1.1
     be assigned to the           of the               Officer.




                                                D � I 6 I D
                                                                                                               APPENDIX II

                                                                                                                 Page 2 of 7





                         No. 2: We recommend that the           for Management instruct              bureaus
   to establish filing          that would allow all users to obtain copies of interagency
   and related              in a timely manner.



   We will issue a general notia instructing all bureaus to          filing systems to allow users to
   obtain copies of interagency agreements and related documents a timely                 The notice
   will also cover         filing requirements to ensure the proper maintenance and control over
   official Agency records. This recommendation should be assigned to

   Recommendation No. 3: (revised per                       memo) We recommend that the Bureau for
   Management ensure that the Agency                    System
   categories of completed Section 632(b)                agreements.



   ADS 306 will be updated to                             closing all categories of                  section
        interagency                    This                  should be assigned to



                  interagency agreements of                                   that a Justification and
                             be prepared          technical                  is obtained        other
   Agencies.



   ~n3            DrD                                              of                  for
                               for                                      that are
               This                                           to

                      No. 4:                        We                       that the Bureaus fix
                       Europe       Newly                              Latin Am&a and the Caribbean,
   and Management identify all completed interagency                        obtain any additional
   information needed         recipient       to                                       for completed
           632(b)                          any                      are no
   following amounts identified during the audit (198                                 valued a total
               million       in Appendices

4 . 1      the Bureau for           should review Section 632(b)                   at
   4.2     the       for          and Near East should review Section 632(b) agreements                  at

   4.3     the Bureau                 and Newly                          should review Section 632(b)
                                 at
                                                                                                     APPENDIX II
                                                                                                       Page 3 of 7




4.4	   the Bureau for Latin America and the Caribbean should review Section
                   valued at                          for           Salvador), and
4.5    the Bureau for             should review Section 632(b) agreements valued at


              Decision:

The           bureaus will       directly regarding               4.1          4.4. We
agree with recommendation 4.5 and will take appropriate actions,     identifying an
amount to be             Recommendation 4.5 should be assigned to

                   No. 5: We recommend that the Bureau for Management issue guidance and
           to help        managers appropriately choose between Section 632(a) and Section
632(b) interagency



We have discussed this recommendation                   for Policy     Program Coordination
       and the                                   GC believes they can assist in the             of
the guidance baaed on their prior work and                                     issues involved.
         significant policy       arc involved, PPC has agreed to                       for
resolving the policy issues and implementing the
                                                                         APPENDIX II
                                                                           Page 4 of 7




 n c��i�n FOR


� l.lsvmtl�q




          To:

          From:
          Subject:   Draft Audit Report of         Interagency
                     Agreements under Section       of the Foreign
                     Assistance Act

         Thank you for the opportunity given in your March 11, 1999

         memo for EN1 to comment on Recommendation 4 of the subject

         draft audit report. This recommendation stated that EN1

         should identify all completed interagency agreements,

         obtain any additional information needed from recipient

         agencies to expedite the close-out process for all complete

         Section       agreements and deobligate any funds that are

         no longer needed, including the             listing

         identified. A quick review of this listing Indicates the

         following:

                The listing is of obligation transactions and not of
                different Section 632(b)                Therefore, a
                �e��bnm of the obligation transactions relate to the
                same agreement. Not only does this overstate the count
                of our interagency agreements, but contributes to the
                potential for mispostlng of data.
         2.	 In a number of cases, the completion dates noted have

             been extended and are not reflected in the 

             database, the source of this listing.

         3.	 Many of the funds noted for possible deobligation have

             been used by, and are awaiting billings from, the

             recipient agencies.





                            �      �   ��D DD�    �DND�
                                                                 APPENDIX II
                                                                   Page 5 of 7




4.	 We suspect that although the billings may have been

    submitted by the recipient agencies, they 
    not been

    processed and posted correctly by 
     to accurately

    reflect the status of the obligation transaction.

Therefore, EN1 believes that the                    greatly

overstates the 
      potential deobligations.
acknowledges ,93 4W6,n63 OG6C3 is 6nIW76nw3 G3 better
determine the actual status and needed corrective actions.
Towards this means and as evidence of the importance that
EN1 places on deobligating excess funds, EN1 issued on
November 23, 1998 the attached Bureau Operating Procedure
Number 207 on Deobligations and                        Section
V.B.3. specifically addresses deobligation procedures for

expired and active Section 632(b) agreements. The 

position devoted to following up and facilitating this

deobligation process has recently been converted from a

      position to GS and is now in the final stages of

being filled. Once filled, we will be able to better

follow-up on this audit recommendation.

Again, we thank you for the opportunity to comment on this

audit                   will keep you informed of our

actions and findings to resolve it.


Attachment:   EN1 BOP 
     (Deobligations and 

                                                                                                    APPENDIX II

                                                                                                      Page 6 of 7





                                                                      1999




FOR:                      Paul Armstrong

FROM

SUBJECT:         Request for Management Decision on Revised Recommendation No. 4 of
                 the            of Audit of US                 Agreements under
                 Section 632 of tbe �Fo� e�n          n


Recommendation No. 4.4 of the                                 The LAC               the
                  3 3       3      3       below our          (management decision)
addressing it.

yn1GEEnF2CB7GF3 4.4: The Bureau for                              and the Caribbean         review
the       632(b) agreements     at                        (including $27,144 for
Salvador).


          ��� r �D                           Free Trade Expansion               Project 52%
0822 to 72nFB74e3                     in addition to the five that      identified in
audit review. ‘This         will be completed by April 30.1999 and it is           step of
official closeout process of the         which will        at     end of this fiscal year.

                  those      with unutilii       we                     amendments that
modify the budgets consistent with     completed objectives and provide           to the
             agencies on the     to he       such that          can          unutilized
      The prototype IAA                 being          and will be cleared    legal
controller offices.                      issued FY 95 FY 97 will be completed by


Based on the above, we request that you accept                               n EdNo,oGYA




                            n          n       n �AsAen           n    n
                                                               APPENDIX II
                                                                 Page 7 of 7




                                        March 31, 1999





MEMORANDUM FOR:          Paul E. 


FROM :


SUBJECT:	 Request for Management Decision on Revised

          Recommendation No. 4 of the Draft Report of Audit

          of         Interagency Agreements under Section

          632(b) of the Foreign Assistance Act



As requested in your memorandum dated March 11, 1999, the

Bureau has reviewed reconnnendation 4.2 of subject audit

report. The recommendation refers to the 632(b) Interagency

Agreement between 
     and the United States Environmental

Protection Agency          Following is the status.


    4.2: The Bureau for Asia and Near East should review

Section 632(b) agreements valued at $992,751 (unliquidated

obligation amount at         or 


        The information provided in the referenced document

is incorrect. The Interagency Agreement between 
      and

      was amended August 16; 1996 (Amendment No. 4) to

extend the completion date from September 30, 1997 to

August 30,           attached). The unliquidated amount,

$992,751, will be expended over the.life of the agreement.



Attachment: Amendment No. 4

                                                                                                                                               APPENDIX III
                                                                                                                                                  Page 1 of 6
                       USAID’S                       Interagency Agreements Open as of June                 Executed under
                                                      Section 632(b) of the Foreign Assistance Act

                                                                                                                               �nB
                                                                                                         qGBCD3 v�D75CBn2                    vMBABCF27F5
                                                                                 pBC,B      VGEHDnB7GF    TEGMFB3 per     rFD7IM72CBn2       T2NCF1n3 per
                     yn17H7nFB3 T5nF1e                    v�D75CB7GF3�ME�n,                                               Obligation Hn,
                                                                                 �CBn         �CBn         T9TVp3 CB                         T9TVp3CB
                                                                                                                           T9TVp3CB

irylTr3 cvy3 TcyfVT
General Services Administration                        698-0565-G-00-6-270-00                                                            0              0
General Services Administration                        AFR-P-00-97-00004-00                                                                             0
National Aeronautics and Space Administration          698-0565-G-00-6-27 l-00                                   58,000             58,000              0
Department of Navy                                     698-0565-G-00-6-224-00                                   635,000                143            143
Department of State                                    698-0565-G-00-6-2 l-00                                   340,000            171,024        171,024
Department of State                                    AFR-G-00-97-00009-00                                     100,000            100,000              0
qvqTs3 3irylTr3cvy3TcyfVT                                                                                                                         b6bSbg6

                 3       3 T��3 qol3   � lTy3 lTpq
Department of Commerce                                 AEP-00                                                                                           0
Environmental Protection Agency                        499-00 15-G-00-2544-04    0813                            10,000                  1              0
Environmental Protection Agency                        ANE-P-00-97-00003-00                                                    I                        0
Overseas Private Investment Corporation                       15-G-00-3522-00                                  1 ,ooo,ooo          251,559        251,559
Trade and Development Agency                           499-00 15-G-00-2566-00                                   500,000            204,602        202,877
Department of Agriculture                    499-00 5-G-00-6                     06124196                       200,000                  1              0
qvqTs3 3 irylTr3 cvy3 TpfT T�� qol �lTy lTpq                                                                                                       R S Pg

irylTr3 cvy3 ortT�fqTyfT�3 ylpmv�pl
Federal Emergency Management Agency       FDA-P-00-98-000                        0                              100,000            100,000
Federal Emergency Management Agency       9685503600560200                                                      100,000             12,296          12,296
qvqTs3 3 irylTr3 cvy3 ortT�fqTyfT� ylpmv�pl                                                                     OWWUWWW            bbOUOLg
                                                                                                                                APPENDIX III
                                                                                                                                   Page 2 of 6
                    USAID’S            Interagency Agreements Open as of June                   Executed under
                                       Section 632(b) of the Foreign Assistance Act

                                                                                                                  Net
                                                                                             Total Obligated Unliquidated     Outstanding
                  Recipient Agency          Obligation Number       Start       Completion    Amount per     Obligation per   Advance per
                                                                    Date          Date         AWACS at       AWACS at        AWACS at



         FOR EUROPE AND THE NEW INDEPENDENT STATES
           of Agriculture                180-0024-G-00-57 14-00                                                    100,000         100,000
           of Agriculture                110-0006-G-00-5 149-00                                     100,000        100,000         100,000
           of Commerce                   110-0005-G-00-3758-00                                                     166,450               0
     Corps                               110-0005-G-00-3759-00                                                       4,745               0
         and Exchange Commission                         1                                                                               0
      Trade Commission                                    17-00                                     456,000               1              0
           of Justice                                     18-00                                     244,000        13 1,845              0
           of Commerce                                                                              170,000        170,000               0
         and Exchange Commission         110-0005-G-00-4 174-00        1                                                  0              0
           of the Treasury               110-0009-G-00-5695-00         1
3nvironment Protection Agency            180-0039-G-00-3845                 1                                      716,587               0
lnvironment Protection Agency                 183003                        1                                      252,842         252,842
Invironment Protection Agency            180-0039-G-00-2436                                                        493,715               0
lnvironment Protection Agency            180-0039-G-00-4378                                                        802,670               0
            Protection Agency            180-0039-G-00-5392                                                           1,262              0
lnvironment Protection   Agency                                                                     800,000              17
            Protection   Agency          180-0004-G-00-38 19                                                        50,000               0
lnvironment Protection   Agency          180-0004-G-00-2052                                               1         29,952               0
            Protection   Agency          110-0002-G-00-36 1 O-O 1                                   750,000        466,593               0
            Protection   Agency          110-0003-G-00-3656                                                        4 16,700              0
                                                                                                                                                    APPENDIX III
                                                                                                                                                       Page 3 of 6
                   USAID’S                      Interagency Agreements Open as of June                         Executed under
                                                Section 632(b) of the Foreign Assistance Act

                                                                                                            Total Obligated      Net             Outstanding
                                                                                   Start     Completion      Amount per     Unliquidated         Advance per
                 Recipient Agency                    Obligation Number                                                      Obligation per
                                                                                   Date        Date           AWACS at                           AWACS at
                                                                                                                             AWACS at

 l2N76G2En23 m6Gn17G23 r5n21e                bbaJaaaPJdJaaJRPhc                                                                    3 bgSVcV                 a
�nH96En23 G43 r5671WDW6n                     3 baJaaaPJdJaaJ PVg                                                   haaSaaa        c VSaaa           c VSaaa
3mn91n3tG6HA                                                                                                          RaaSaaa        baiScRg                   a
L�nH96En23 G43 qWA71n                      3                            3         3                                                               f3 SGGGSGGG
L�nH96En23 G43 qWA71n                                                                                                                                       a
s�nH96En23 G43 .9�G6                          biaJaaPPJdJaaJPPgcJaa                                                                      3f                  a
 �nH96En23 G43 .9�G6                                                                                                       3f            3b                  a
 �nH96En23 G43 tGEEn61n                       3 baJaaa JdJaaJPha3 DJaa                 3                            Rc3 bSaaa             a                  a
 �nH96En23 G43 tGEEn61n                       3 fvJaaa JdJaaJciiaJaa                   3                            caiSaaa       3 PhSVR                    a
 �nH96En23G43on9D,392w3 9N8c3 pn6N71nA                                                                                                                       M
 �nH96En23 G43 on9D,3 92w3 oWE923 pn6N71nA                                                                         baaSaaa        baaSaaa                    a
 �nH96En23 G43 on9D,3 92w3 oWE923 pn6N71nA                                                                     3                                             a
 TOTAL BUREAU FOR EUROPE AND THE NEW INDEPENDENT STATES                                                                            29.266376

BUREAU FOR GLOBAL PROGRAMS, FIELD SUPPORT AND RESEARCH
L�nH96En23 G43 r5671WDW6n                      rrdJmJaaJVhJaaaaP                                                                                     hRcS RR
L�nH96En23 G43 r5671WDW6n                      VPgJRRRgJdJaaJggca                     3                                             RRSiV            RRSiV
�nH96En23 G43 ,n3 f2n67G6                     l�8JmJaaJVhJaaaacJaa                                            3                 3      3b
�nH96En23 G43 ,n3 f2n67G6                     mtlJyJttJV JaaaV                                    3f3                             PbbSaPi                   a
�97G29D3 rn6G29W71A3 92w3 pH91n rwE727A697G2  l�8JmJaaJVhJaaaaPJaa                                                c aSaaa         c aSaaa                   a
�nH96En23 G43 l2n65e                           3 rrdJmJaaJVhJaaa3  3b        3                  3               3                   R i h S V P   3           a
             G43                                 bVPgJRh PJdJaaJRia Jaa    f                                          VaaUaaa3 I     1my-1mm3                   a
                                                                                                                                               APPENDIX III
                                                                                                                                                  Page 4 of 6
                    USAID’S                             Interagency Agreements Open as of June                 Executed under
                                                        Section 632(b) of the Foreign Assistance Act

                                                                                                                                 Net
                                                                                                            Total Obligated Unliquidated     Outstanding
                  Recipient Agency                                                Start    Completion        Amount per                      Advance per
                                                            Obligation Number                                               Obligation per
                                                                                  Date       Date             AWACS at                       AWACS at
                                                                                                                             AWACS at

              of State                                 AAG-P-00-97-00004-00                                        570,000        570,000         570,000
 Walter Reed Army Institute of Research                AAG-P-00-97-000 18-00                                       496,478              0               0
�Walter Reed Army Institute of Research                AAG-P-00-97-000 15-00                                       324,555              0               0
         for Disease Control                           AAG-P-00-97-000 13-00                   1                   636,714        636,714               0
           Institute for Allergies Infectious Diseases AAG-P-00-97-00009-00                                        400,000        400,000               0
       Corps                                           AAG-P-00-97-00008                                           825,000        825,000               0
              of State                                 936-5544-G-00-4556    0813                                                 405,029         405,029
 JS Information Agency                                 AAG-P-00-97-00026                                1         620,000         620,000               0
               of Labor                                ECG-P-00-97-00004                                           100,000        100,000               0
 securities and Exchange Commission                    ECG-P-00-97-00002                                     2 2 5 , 0 0 0        225,000               0
I              of State                                ECG-P-00-97-00003                                                                                0
1Department of State                                   ECG-P-00-98-00004
 I’OTAL BUREAU FOR GLOBAL PROGRAMS, FIELD SUPPORT AND RESEARCH

1BUREAU FOR MANAGEMENT
1Defense Contract Audit Agency                            CAM-P-00-97-0000 1                                                                            0
1      Command, Control and Ocean Surveillance Center     MGT-P-00-97-0000 14
  I’OTAL BUREAU FOR MANAGEMENT                                                                                           1

1BUREAU FOR LATIN AMERICA AND THE CARIBBEAN
1           of Commerce                 LAC-P-00-98-00009-00                                                        38,708          38,708         38,708
1Department of Agriculture              LAC-P-00-98-00008-00                                                       131,000         131,000              0
                                                                                                                                                              APPENDIX III
                                                                                                                                                                 Page 5 of 6
                     USAID’S                        Interagency Agreements Open as of June                                Executed under
                                                    Section 632(b) of the Foreign Assistance Act

                                                                                                                                            Net
                                                                                                                       Total Obligated Unliquidated         Outstanding
                   Recipient Agency                       Obligation Number            Start         Completion         Amount per     Obligation per       Advance per
                                                                                       Date            Date              AWACS at       AWACS at            AWACS at

Department of the Interior US Geological Survey       LAC-P-00-98-00007-00                                                     47,945         47,945                  0
Federal Trade Commission                              LAC-P-00-98-00006-00                                                    126,200        126,200                  0
Department of Justice                                 LAC-P-00-98-00005-00                                                     65,900         65,900                  0
            of State                                  LAC-P-00-98-00004-00                                   1                 52,900          1,283                  0
            of State                                  LAC-P-00-98-00003-00                                                     18.000            546                  0
           of Labor                                   LAC-~-00-98-00002-00           ���                                       10.000 1       10.000    I             0
Department of the Interior                           1D                             1D          D1                             64.800         64.800                  0
Department of Agriculture                             LAC-P-00-97-000 1                                                                                               0
Department o f Agriculture                            LAC-P-00-97-00005-00                                                     10,000         10,000                  0
Department o f the Interior US Geological Survey      LAC-P-00-97-00004-00                                                     50,000              6                  0
            o f Justice                               LAC-P-00-97-00003-00                                                     25.000              0
      Trade Commission                                LAC-P-00-97-00002-00                                                     25.000          1.455 I                 0
          of the             US Customs Service                              D 1D              D 1                D1           65.000         11.585                   0
Department of the Interior- US Geological Survey      598-0822-G-006025-00                                                    145,000              0                   0
Department of Labor                                   598-0822-G-006000-00                                                     12,150         12,150                   0
Department of Commerce National Telecommunication
And Information Administration                        598-0822-G-006029-00                                   1                 30,000         25,444              25,444
Smithsonian Institution                               598-0822-G-006023-00                                                     15,000              0                   0
Federal Mediation                                     598-0822-G-005049-00                                                    160,000          1,291                   0
Department of the Interior US Geological Survey       598-0822-G-005048-00                                                    125,000              0                   0
Department of Commerce                                598-0822-G-005050-00                                                     36,292              0                   0
TOTAL BUREAU FOR LATIN AMERICA AND THE CARIBBEAN                                                                                                                  64,152
                                                                                                                                APPENDIX IV
                                                                                                                                   Page 1 of 6

                     USAID’S                       Interagency Agreements Completed as of December
                                         Executed under Section 632(b) of the Foreign Assistance Act

                                                                                                                                 Net
                                                                                                            Total Obligated Unliquidated
                   Recipient Agency                           Obligation Number       S t a r tCompletion    Amount Hn,     Obligation Hn,
                                                                                      Date       Date         AWACS at       AWACS at


BUREAU FOR AFRICA
National Aeronautics and Space Administration              698-0565-G-00-6-27 l-00    09130196                      58,000           58,000
Department of Navy                                         698-0565-G-00-6-224-00                                  635,000.             143
                                                Subtotal                                                           693,000           58,143

BUREAU FOR ASIA AND THE NEAR EAST
Environmental Protection Agency                                  15-G-00-2544-04      0813                                               1
                                                Subtotal                                                                            992,751

                                  THE

          of Agriculture                                                                                              100,000       100,000
Department of Commerce                                       IO-0005-G-00-3758-00                                                   166,450
Peace Corps                                                I 10-0005-G-00-3759-00                                                     4,745
Environment Protection 6HncDG                              .���7mMMm                         1                   8,                 1y157e1
Federal Trade Commission                                                             �46                              m,M5MMM       �yM5ymm
U.S. Information Agency                                    180-0002-G-00-3022-00                                                      1,775
U.S. Information Agency                                    180-0002-G-00-4022-00                                                          0
Environmental Protection 6HncDG                            �7MgMMMeg2gMMg1My1gMM                                                     1A5yI7
Environmental Protection Agency                            180-0004-G-00-38 19-00                                                    50,000
U.S. Information Agency                                    180-00 19-G-00-2 192-00                                     60,000         8,372
Library of Congress                                        180-00 19-G-00-2730-00                                                    16,886
                                                                                                                               APPENDIX IV
                                                                                                                                  Page 2 of 6

                        USAID’S                    Interagency Agreements Completed as of December
                                         Executed under Section 632(b) of the Foreign Assistance Act

                                                                                                                                 Net
                                                                                                            Total Obligated Unliquidated
                      Recipient Agency                  Obligation Number        Start    Completion         Amount per     Obligation per
                                                                                 Date       Date              AWACS at       AWACS at

      Information                                    180-0020-G-00-220 l-00                                        722.370          36.58 1
     Information                                     180-0020-G-00-3 179-00                   0313     I           214.180               71
     Information Agency                              180-002                    0611                             2.126.597                0
                                                              -G-00-2207-00
      Information Agency                             180-002                                                     1.561.173              126
                                                              -G-00-2208-00
      Information Agency                             180-002 1-G-00-3 194-00                                     1.875.000              640
                                                     180-002 1 -G-00-3 196-00                                      985,933                0
                                                     180-002 1 -G-00-457 l-00                 1213                                 (22,657)
                                                     180-002 -G-00-55 12-00                   1                    550,000           2,250
                                                     180-0022-G-00-222 l-00                                        300.000            1.326
      Information                                    180-0022-G-00-3203-00                                         550.000 I         8.912
     Information Agency                                                 12-00                                      500.000 I          1.923
��Peace                                                                                                            290.000                0
(Peace                                               ,180-0023-G-00-2230-00                            I           671.686         164.439
Peace Corps                                                           l-00                              I          986.300         122.223
 Peace Corps                                                                                                                       511,071
       Corps                                          180-0023-G-00-5584-00                                        404,000         7,891
Department of     Agriculture                         180-0024-G-00-2245-00                                                        105,709
Department of     Agriculture                         180-0024-G-00-2743-00                                        600,000          64,069
Department of     Agriculture                         180-0024-G-00-3239-00                                                        617,785
Department of     Agriculture                         180-0024-G-00-469 l-00
Department of     State                               180-0026-G-00-2254-00                                        300,000          78,777
             of   Commerce                            180-0026-G-00-2259-00      0313 1       0313 1               896.000         194.724
                                                                                                                    APPENDIX IV
                                                                                                                       Page 3 of 6

                    USAID’S Non-PASARSSA Interagency Agreements Completed as of December
                                 Executed  ler Section 632(b) of the Foreign Assistance Act

                                                                                                                       Net
                                                                                                  Total Obligated Unliquidated
                   Recipient Agency                                     Start   Completion         Amount per
                                                 Obligation Number                                                Obligation per
                                                                        Date      Date              AWACS at       AWACS at


           of Treasurv                         180-0026-G-00-2865-00                                     850.000         55,472
            of State                           180-0026-G-00-3257-00                                     900.000             13
Federal Trade Commission                       180-0026-G-00-3259-00                                   2.400.000          5,062
            of Justice                         180-0026-G-00-3260-00                                                     28,466
Department of Commerce                         180-0026-G-00-3264-00   0813         1213                                311,498
            of State                           180-0026-G-00-3266-00                                     250.000        199,883
Department of Treasury                         180-0027-G-00-2260-00                         D1        �Ie..I...        166,272
Securities and Exchange Commission             180-0027-G-00-226 l-00 0313          0610                 484.000         80,898
           of Treasurv                         180-0027-G-00-2262-00                         D1        5.900.000         22,689
           of Treasurv                         180-0027-G-00-2750-00                                                      2,926
           of Treasurv                         180-0027-G-00-3273-00
Department of Treasurv                         180-0027-G-00-4830-00
           of                                  180-0027-G-00-583 l-00                                  9.868.985
         Private Investment Corporation        180-0028-G-00-2280-00                                   2.282.147               0
Trade Development Association Ltd.             180-0028-G-00-228 l-00                                  3.530.000           1,000
Overseas Private Investment Corporation        180-0028-G-00-3287-00                         D1          524.52 1              0
                                               180-0028-G-00-3296-00                         D1        1.350.000
                                               180-0029-G-00-2295-00  0610                             3.325.899          4,403
                                               180-0029-G-00-3307-00                                                           0
                                               180-0029-G-00-4893-00                                                           0
                                               180-0030-G-00-2305-00                                     160,000          8,589
                                               180-0030-G-00-23 1                                                        5 1,222
                                                                                                                                      APPENDIX IV
                                                                                                                                         Page 4 of 6

                   USAID’S                          Interagency Agreements Completed as of December
                                          Executed under Section 632(b) of the Foreign Assistance Act

                                                                                                                                     �nB
                                                                                                               qGBCD3 v�D75CBn2 -2D7IW7w9nw
                  yn17H7nFB3 T5nF1e                                              pBC,B       VGEHDnB7GF         TEGMFB3Hn6
                                                                                 �9n          �9n                             v�D7597G23 Hn6
                                                                                                                 r~rtp3 9
                                                                                                                                 r~rtp3 9

Nuclear Regulatory Commission                         180-0030-G-00-23 l-00                      aRbP3                VaaSaaa3 f                   a
Department of Energy                                  180-0030-G-00-3825-00
           of                                         180-003 1 -G-00-2325-00
           of
           of Labor
            of Agriculture                                                                            3               hRaUaaa3 1          130.416
Department of Agriculture                             180-0039-G-00-4377-00      aVbc3                    D1           100.000    1                a
U.S. Information Agency                               180-0045-G-00-446 l-00                                         PUaaaUaaa3   1         3.126
U.S. Customs Service                                  180-0052-G-00-373 l-00         3           bcbP3                                     gRSbR
Trade and Development Agency                          180-0054-G-00-6087-00                                           150,000                      0
U.S. Information                                      180-0249-G-00-2500-00      1       1                              7,492                      0
            of Commerce                                                              1                                497.000                      0
    Information Agency                                                                                    D1         PUaaaUaaa3 1               a
           of Health and Human Services                                                          b3       D1           iVcUPic3              UciR
           Credit Corporation                                1        3                                    D        13.791.000    1        gcUica
    Information Agency                                       1 -G-00-2807-00                              D1         cU aaUaaa3           PicUaac
       of Human Rights and Humanitarian                      1                                                         cRaUaaa3            baUhaa
General Accounting                                    11      1 -G-00-3039-00                                           chUiPb3            bcUacc
Department of State                                   11      1 -G-00-3 542-00       3                                                     gRSaaa
U.S. Customs Service                                  11      1 -G-00-5 157-00                       3                 bcaSaaa             cRSbia
Commodity Credit Corporation                          11     1 -G-00-527 l-00                       3b3                                   PPaSaaa
Nuclear Regulatory Commission                         110-0002-G-00-2326-00                      bcbP3                                    bb Siaa
                                                                                                                            APPENDIX IV
                                                                                                                               Page 5 of 6

                    USAID’S                         Interagency Agreements Completed as of December
                                          Executed under Section 632(b) of the Foreign Assistance Act

                                                                                                           n
                                                                                                                                 Net
                                                                                    Start   Completion   Amour’             Unliquidated
                   Recipient Agency                         Obligation Number                                               Obligation per
                                                                                    Date      Date
                                                                                                                             AWACS at


Department of Energy                                      110-0002-G-00-2327-00                 1213 1     2                      (15,728)
Department of Energy                                      110-0002-G-00-2626-00                                                  (223,106)
Trade and Development Agency                              110-0002-G-00-363 l-00                                                 (150,000)
Overseas Private Investment Corporation                   110-0004-G-00-2878-00                                 765,428                  0
Department of Commerce                                    110-0005-G-00-2062-00                                                   903,889
Trade and Development Agency                              110-0005-G-00-2500-00                                                   (60,000)
                                    .
Department of State                                       110-0005-G-00-2504-00                                 500,000           491,815
Overseas Private Investment Corporation                   110-0005-G-00-2509-00                                                          0
Trade and Development Agency                              110-0005-G-00-3235-00                                1 ,ooo,ooo         270,615
Department of Commerce                                    110-0005-G-00-3758-00                                                   166,450
Department of Commerce                                                                                                            4 12,692
Securities and Exchange Commission                        110-0005-G-00-4 177-00                                 25,000            25,000
Department of Agriculture                                 110-0006-G-00-2080-00                                                   540,000
U.S. Information Agency                                   110-0007-G-00-3865-00                                                     6,757
Department of Treasury                                    110-0009-G-00-4
Department of Treasury                                    110-0009-G-00-5680-00                                 680,455           680,455
U.S. Information Agency                                   11                                                                            0
                                                                 12-G-00-3252-00
Department of State                                       11                                                    398,778            25,000
                                                                 12-G-00-3255-00
Department of Agriculture                                 11                                                                            0
                                                                 12-G-00-4 132-00
Department of Treasury                                    11                                                                            1
                                                                 12-G-00-4 134-00
                                               Subtotal
                                                                                                                   APPENDIX IV
                                                                                                                      Page 6 of 6

                    USAID’S                        Interagency Agreements Completed as of December
                                         Executed under Section 632(b) of the Foreign Assistance Act

                                                                                                                       Net
                                                                                                  Total Obligated Unliquidated
                                                                             Start   Completion    Amount per     Obligation per
                   Recipient Agency                     Obligation Number    Date      Date         AWACS at       AWACS at


BUREAU FOR LATIN AMERICA AND THE CARIBBEAN
Department of Agriculture                            LAC-P-00-97-00005-00                                 10,000         10,000
Department of the Interior US Geological Survey      LAC-P-00-97-00004-00                                 50,000              6
Department of Justice                                LAC-P-00-97-00003-00                                 25,000              0
Federal Trade Commission                             LAC-P-00-97-00002-00                                 25,000          1,455
Department of the Treasury US Customs Service        598-0822-G-006024-00                                 65,000         11,585
Department of the Interior- US Geological Survey     598-0822-G-006025-00                                145,000              0
Department of Labor                                  598-0822-G-006000-00                                 12,150         12,150
Smithsonian Institution                              598-0822-G-006023-00                                 15,000              0
Federal Mediation                                    598-0822-G-005049-00                                160,000          1,291
Department of the Interior US Geological Survey      598-0822-G-005048-00                                125,000              0
Department of Commerce                               598-0822-G-005050-00                                 36,292              0
MISSIONS IN THE BUREAU FOR LATIN AMERICA AND THE CARIBBEAN
US Information Agency                      AGR 5 19-0376.02                                              300,000         27,144
                                  Subtotal                                                               968,442         63,632

                 GRAND TOTAL
                                                                                                                                       APPENDIX V
                                                                                                                                         Page 1 of 6


    List of Interagency Agreements Executed Under Section 632(b) of the Foreign Assistance Act Which Had Expired on or before

                                                  Obligation       Unliquidated     Completion     Reasons Given by the       of Procurement and
                 Recipient Agency                  Number           Obligation        Date          Office of Financial Management as to Why the
                                                                   as of                          Agreement was Still Open in AWACS as of
4. SECTION 632(b) TYPE:
  BUREAU FOR MANAGEMENT
 Department of Agriculture                                                32,809      3 1 -Mar-95 No response from recipient agency.
            of Agriculture                                                81,601       30-Sep-95 No response from recipient agency.
 Department of Agriculture_                                              375,277        3       Final voucher not received.
 Department of Agriculture                                102600           1,471      3 l-May-94 No response from recipient agency..
            of Agriculture                               104400          122,843                 Final voucher not received.
 Department of Agriculture                               107400                 1       31       FM will deobligate.
1Department of Commerce                                                   10,797       30-Jun-94 Deobligated 1

   BUREAU FOR AFRICA
             of State                         AFROOOORSA602400            36,000                 Deobligated
  Department of Commerce                      AFRO5                      150,994      30-Sep-95 No response from recipient agency.
1Department of Agriculture                              112 100          128,131                Final voucher not received.
1           of Agriculture                              I 10300         39,404                   Deobligated 1
IDepartment of Agriculture                              112400            27,705      3 1 -Mar-94 No response from recipient agency.
I           of Agriculture                    BAFO                                               Deobligated

    BUREAU FOR EUROPE AND THE NEW INDEPENDENT STATES
I         of Agriculture                                                 100,000      3 1 -Mar-95 No response from recipient agency.

41. BUREAU FOR ASIA AND THE NEAR EAST
1         of Health and Human Services                                   133,007      3 1 -Mar-92 Deobligated
IDepartment of Agriculture                                               158,550                 Final voucher not received.
                                                                                                                                   APPENDIX V
                                                                                                                                     Page 2 of 6


List of Interagency Agreements Executed Under Section 632(b) of the Foreign Assistance Act Which Had Expired on or before

                                              Obligation      Unliquidated    Completion    Reasons Given by the       of Procurement and
             Recipient Agency                  Number          Obligation       Date         Offke of Financial Management as to Why the
                                                              as of                        Agreement was Still Open in AWACS as of
5. BUREAU FOR LATIN AMERICA AND THE CARIBBEAN
Department of Agriculture                            100400          14,729               Final voucher not received.
Department of Agriculture                                             6,466     30-Sep-93 Closure pending in the Offke of Procurement.
Department of Agriculture NFC                                       280,798               No response from recipient agency.
Department of Agriculture                                            11,226               Closure pending in the Offke of Procurement.
Department of Agriculture                                                 I               Deobligated 1
Department of Agriculture                                            29,839     01 -Jun-94 Deobligated 1
Department of Agriculture                                            10,168                     voucher not received.

6. BUREAU FOR HUMANITARIAN RESPONSE
Department of Agriculture                                            42,425     1 O-Sep-94 Final voucher not received.
Department of Agriculture                 BOFOOOORAG509 100         203,853              $172,466 deobligated by 1

7. BUREAU FOR GLOBAL PROGRAMS, FIELD SUPPORT, AND RESEARCH
Department of Labor                                                  32,118     30-Sep-90 Deobligated 1
Department of Labor                                                 127,637               Pending in the Offke of Procurement.
Department of Commerce                                              189,686      31     1 Final voucher not received.
Department of Agriculture             BST4      108500                   68      31       No response      recipient agency.
Department of Agriculture                                            54,729               No response from recipient agency.
Environmental Protection Agency       ANEO                           86,879               Deobligated 1
Department of Commerce                                               73,534               No response from recipient agency.
                                                                                                                                      APPENDIX V
                                                                                                                                        Page 3 of 6


    List of Interagency Agreements Executed Under Section 632(b) of the Foreign Assistance Act Which Had Expired on or before

                                                   Obligation        Uoliquidated   Completion    Reasons Given by the Offke of Procurement and
                  Recipient Agency                  Number            Obligation      Date             of Financial Management as to Why the
                                                                     as of                       Agreement was Still Open in AWACS as of
 3. SECTION 632(b) TYPE:
 I. BUREAU FOR MANAGEMENT
           of Agriculture                                103400            52,232           No response from recipient agency.
 Department of Commerce                                                    82,587           Pending in the Offke of Procurement.
I         of Commerce                                                      60,000           No response      recipient agency.
       of Engineers                          CIMOOOOPDD300700              65,000           Closure pending in the Office of Procurement.
I       of Congress                                                       119,337 30-Sep-95 Closure pending in the Offtce of Procurement.
I       of Congress                                                       107,460 30-Sep-96 Closure pending in the Offke of Procurement.
I       of Congress                          CIMOOOOPLC200 100              1,494           Deobligated
I       of Congress                          OTROOOOPLC 10 1000            19,760 30-Sep-9 1 Deobligated 1
         Services Administration             OTROOOOPGS107100                  11 30-Sep-95 Closure pending in the Offtce of Procurement.
I              Protection Agency                                          525,000 3         Closure pending in the Offke of Procurement.
        for Disease Control                                                96,135           No response from recipient agency.
I           of Health and Human Services                                  313,241           Closure pending in the Offtce of Procurement.
I      Corps                                  BST55                             1 3         Deobligated 1
I           of Agriculture                    DAN5                         11,506           Final voucher not received.
I           of Agriculture                                  105700          1,547 28-Feb-93 No response from recipient agency.
I           of Agriculture                    DAN4          100            12,105           Deobligated
I           of Agriculture                    DAN402 1 PAG702000              467          1 Deobligated
                                                                                                                                        APPENDIX V
                                                                                                                                          Page 4 of 6


List of Interagency Agreements Executed Under Section 632(b) of the Foreign Assistance Act Which Had Expired on or before

                                              Obligation         Unliquidated     Completion     Reasons Given by the       of Procurement and
                Recipient Agency               Number             Obligation        Date          Office of Financial Management as to Why the
                                                                 as of                          Agreement was Still Open in AWACS as of
!. BUREAU FOR AFRICA
     Corps                                                              82,199      29-Sep-93 Deobligated 1
    Corps                                                               4 1,702               Deobligated 1
         of Agriculture                                                                       No response from recipient agency.

1. BUREAU FOR EUROPE AND THE NEW INDEPENDENT STATES
          of Interior                 EURPIP9200062                                            Final voucher not received.
         of Health and Human Services                                  530,897              Final voucher not received.
          of Energy                                                      3,234               Deobligated
      Regulatory Commission                      105000                218,655      OS-Sep94 Deobligated
         of Health and Human Services                                   42,009               Deobligated 1

1. BUREAU FOR ASIA AND THE NEAR EAST
        of Energy                         AEPOO                          5,548                  Deobligated
          of Agriculture                  BNEO             100          38,138      3 1 -Mar-9 1 No response from recipient agency.
           of Agriculture                 ANEPAG9                        6,537                 Deobligated 1
          of Interior                                                  196,436      3 l-Jan-9 1 Closure pending in the      of Procurement.
          of Agriculture                                                 7,122      30-Sep-93 No response from recipient agency.
           of Health and Human Services   ANEO                         510,120      30-Sep-93 No response from recipient agency.
Department of Agriculture                 ANEO                           8,027                  No response from recipient agency.
                                                                                                                                             APPENDIX V
                                                                                                                                               Page 5 of 6


List of Interagency Agreements Executed Under Section 632(b) of the Foreign Assistance Act Which Had Expired on or before

                                                     Obligation       Unliquidated    Completion     Reasons Given by the       of Procurement and
                Recipient Agency                      Number           Obligation       Date          Office of Financial Management as to Why the
                                                                      as of                         Agreement was Still Open in AWACS as of
5. BUREAU FOR LATIN AMERICA AND THE CARIBBEAN
Department of Health and Human Services      100027                         163,198               No response       recipient agency.
Health and Nutrition Technical SVA               103000                      79,229     30-Sep-95 Deobligated 1
Department of Agriculture                                                    25,000               No response        recipient agency.
                                                                                                          of Financial Management failed to deobligate as
Department of Health and Human Services         LAC030 1 PHHOO 1800              14     3 1 -Mar-92 system would not allow.

6. BUREAU FOR HUMANITARIAN RESPONSE
National Aeronautics and Space Administration                                15,582                No response from recipient agency.

7. BUREAU FOR GLOBAL PROGRAMS. FIELD SUPPORT. AND RESEARCH
Department of Agriculture                                                     7.852     31         Deobliaated 1
Department of Agriculture                                                     1,686     30-Mar-96 No response       recipient agency.
Peace Corps                                                                 204,456     3 l-Mar-96 No response      recipient agency.
Department of Agriculture             DAN4                                    5,088      31        Deobligated
Department of Commerce                LAC06                                 108,343     30-Sep-93 Closure pending in the         of Procurement.
Department of Agriculture             BST4 PAG405300                          5,979     0 1 -Feb-92 No response      recipient agency.
Department of Energy                                                         12,833                Closure pending in the        of Procurement.
Department of Energy                                                             1                 Closure pending in the        of Procurement.
                                                                                                                               APPENDIX V
                                                                                                                                 Page 6 of 6


List of Interagency Agreements Executed Under Section 632(b) of the Foreign Assistance Act Which Had Expired on or before

                                              Obligation      Unliquidated    Compleiion   Reasons Given by the        of Procurement
             Recipient Agency                  Number          Obligation       Date             of Financial Management as to Why the
                                                              as of                        Agreement was Still Open in AWACS as of
 BUREAU FOR GLOBAL PROGRAMS, FIELD SUPPORT, AND RESEARCH
#Department of Energy                                                           30-Sep93 No response from recipient agency.
Department of Commerce                  DPEPCA8900005               166,441               No response      recipient agency.
Department of Health and Human Services            12                 3,774               Deobligated 1
Center for Disease Control                                            2,793               No response      recipient agency.
Department of Commerce                                                5,574              No response from recipient agency.
Department of Health and Human Services                                         31     1 Deobligated
National Institute of Health                                         55,000     01-Sep-93 No response from recipient agency.
Department of Health and Human Services                              22,523               Deobligated
       of Education                                                  18,187     30-Sep-94 Final voucher not received.
